                               NATIONAL SCIENCE F0UK'vAT:ON
                                     4201 WILSON BOULEVARD
                                    ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL




MEMORANDUM



TO:            I96050029



RE:            Resolution of Case


On May 17, 1996, Dr.     )-r                  University of                 contacted our office and
alleged that her institution had mischarged her NSF grant,                     and had subsequently
refused to c o m t the charge.

Our office conducted interviews with university auditors and determined that the university had, in
fact, mischarged the grant. The university agreed to c o m t these charges and, on June 19, 1996,
credited -grant      with $8,445.41. The university also provided our office with documentation
showing the correction and a letter stating that it had reviewed its' internal financial control system
and would monitor its' future transactions more closely.

This case is closed.
